<html>
<title> - RECOGNIZING THE MEXICAN HOLIDAY OF CINCO DE MAYO; HONORING SISTER DOROTHY STANG; RECOGNIZING THE 57TH ANNIVERSARY OF THE INDEPENDENCE OF THE STATE OF ISRAEL; URGING ROMANIA TO PROVIDE FAIR RESTITUTION FOR CONFISCATED PROPERTY; RECOGNIZING THE STEPS INDIA AND PAKISTAN HAVE TAKEN TOWARD BILATERAL PEACE; URGING THE WITHDRAWAL OF ALL SYRIAN FORCES FROM LEBANON; EXPRESSING THE SENSE OF THE HOUSE REGARDING ANTI-SEMITISM AT THE UN; AND WELCOMING THE PRESIDENT OF AFGHANISTAN ON THE OCCASION OF HIS VISIT TO THE UNITED STATES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                 RECOGNIZING THE MEXICAN HOLIDAY OF CINCO DE MAYO; 
                  HONORING SISTER DOROTHY STANG; RECOGNIZING THE 
                      57TH ANNIVERSARY OF THE INDEPENDENCE OF THE 
                 STATE OF ISRAEL; URGING ROMANIA TO PROVIDE FAIR 
                 RESTITUTION FOR CONFISCATED PROPERTY; RECOGNIZING 
                 THE STEPS INDIA AND PAKISTAN HAVE TAKEN TOWARD 
                 BILATERAL PEACE; URGING THE WITHDRAWAL OF ALL SYRIAN 
                   FORCES FROM LEBANON; EXPRESSING THE SENSE OF THE 
                  HOUSE REGARDING ANTI-SEMITISM AT THE UN; AND 
               WELCOMING THE PRESIDENT OF AFGHANISTAN ON THE OCCASION 
                             OF HIS VISIT TO THE UNITED STATES 
=======================================================================

                                      MARKUP 

                                    BEFORE THE 

                                COMMITTEE ON INTERNATIONAL 
                                         RELATIONS 
                                 HOUSE OF REPRESENTATIVES 

                                 ONE HUNDRED NINTH CONGRESS 

                                        FIRST SESSION 
                                               
                                             ON 

       H. Con. Res. 44, H. Con. Res. 89, H. Con. Res. 149, H. Res. 191, 
            H. Res. 272, H. Res. 273, H. Res. 282 and H. Con. Res. 153 

                                           -------
                                          MAY 18, 2005 
                                           -------
                                      Serial No. 109-105 
                                           -------

        Printed for the use of the Committee on International Relations 

                        Available via the World Wide Web:
                   http://www.hollse.gov/international_relations 

                           U.S. GOVERNMENT PRINTING OFFICE 
21-306PDF                         WASHINGTON : 2006 

  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
                              Washington, DC 20402-0001 

[TEXT NOT AVAILABLE REFER TO PDF]

</pre></body></html>
